              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Security Clearance Terminations and
Badge Retrieval at the Lawrence
Livermore National Laboratory




DOE/IG-0716                                   January 2006
SECURITY CLEARANCE TERMINATIONS AND BADGE
RETRIEVAL AT THE LAWRENCE LIVERMORE NATIONAL
LABORATORY

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objectives            1

              Observations and Conclusions           1

              DETAILS OF FINDINGS

              Security Badges                        4

              Categorization of Unrecovered Badges   4

              DOE Security Clearance Database        5

              Livermore Database                     5

              Security Termination Statements        6

              Out-Processing Procedures              6

              Other Personnel                        7

              Performance Measures                   8

              RECOMMENDATIONS                        8

              MANAGEMENT COMMENTS                    9

              INSPECTOR COMMENTS                     9

              APPENDICES

              A. Scope and Methodology               10

              B. Related Reports                     11

              C. Management Comments                 12
Overview

INTRODUCTION       The Lawrence Livermore National Laboratory (Livermore) is a
AND OBJECTIVES     National Nuclear Security Administration (NNSA) site supporting
                   the Department of Energy’s (DOE’s) core mission of maintaining a
                   safe, secure, and reliable nuclear weapon stockpile and applying
                   scientific expertise toward the prevention of the proliferation of
                   weapons of mass destruction and terrorist attacks. Livermore has
                   approximately 8,000 personnel, the majority of whom are full-time
                   and part-time Laboratory employees. However, the 8,000 also
                   includes subcontractor employees and “affiliated personnel”
                   authorized to participate in research and other work activities at
                   Livermore. Hereafter these people are collectively referred to as
                   “employees,” although not all are technically Livermore
                   employees. According to Livermore’s personnel records, 1,261
                   employees with Q (Top Secret) and L (Secret) security clearances
                   terminated employment with the Laboratory during Fiscal Years
                   (FYs) 2002, 2003, and 2004.

                   Office of Inspector General reviews at other DOE sites have
                   identified weaknesses in the internal controls designed to ensure
                   that persons who end employment with these sites have their
                   security badges collected at the time of their departure and have
                   their security clearances terminated in a timely manner. A list of
                   the associated reports is found in Appendix B.

                   The objective of this inspection was to determine if Livermore’s
                   internal controls were adequate to ensure that: (1) security badges
                   assigned to departing employees were retrieved at the time of
                   departure; and (2) security clearances of departing employees were
                   terminated in a timely manner. To achieve this objective, we
                   conducted samples of transactions associated with employees who
                   terminated their employment during FYs 2002, 2003, and 2004.

OBSERVATIONS AND   We concluded that Livermore’s internal controls were not adequate
CONCLUSIONS        to ensure that security badges were retrieved at the time of employee
                   departure or that security clearances of departing employees were
                   terminated in a timely manner. Specifically we found that:

                   •   Of the 1,261 cleared employees who terminated from the
                       Laboratory during FYs 2002, 2003, and 2004, 373 did not
                       return their security badges on or before the last day of
                       employment as required by DOE policy. For example, 166
                       badges were returned from 14 to 90 days after the employees’
                       last day.



Page 1                                Security Clearance Terminations and
                                      Badge Retrieval at the Lawrence Livermore
                                      National Laboratory
         •   Livermore improperly categorized 11 of the 1,261 terminating
             employees’ security badges as “accounted for” when, in fact,
             they were lost or stolen.

         •   Forty-three of a judgmental sample of 140 cleared terminating
             employees did not have their security clearances terminated in
             DOE’s official personnel security clearance database in a timely
             manner, including 2 employees who remained active in the DOE
             database for nearly a year after their departure from Livermore.
             The two clearances were not terminated until the Office of
             Inspector General notified personnel security staff that the
             individuals were no longer employed by the Laboratory.

         •   Thirty-six of the 140 cleared employees in this same sample
             were not terminated in Livermore’s security clearance database
             in a timely manner, with access authorizations remaining active
             anywhere from 10 to 60 days after the employees’ separation
             dates.

         •   Eighteen of the same sample of 140 cleared employees did not
             complete the required Security Termination Statements, and,
             thus, there was no assurance the employees had received the
             required Security Termination Briefing.

         •   Forty-five of the 140 cleared employees in this sample did not
             follow Livermore’s out-processing procedures. As a result,
             Livermore Security and Badge Office personnel frequently did
             not receive timely notification that employees were departing
             the Laboratory.

         In addition, we found that Livermore:

         •   Did not have sufficient internal controls to adequately monitor
             the current employment status of over 700 cleared
             subcontractor employees and affiliated personnel, to ensure
             that security clearances were terminated and security badges
             were retrieved in a timely manner. Livermore security
             personnel could not confirm for us that all of these individuals
             were at the Laboratory consistently enough to retain a badge or
             to maintain a security clearance, nor was there a means for us
             to readily ascertain their current status.

         •   Did not have performance metrics to measure significant aspects
             of personnel security activities, including timely termination of
             security clearances and retrieval of security badges.


Page 2                                     Observations and Conclusions
         We noted that the oversight responsibility for personnel security at
         Livermore transitioned from DOE’s Oakland Operations Office (OAK)
         to the NNSA Albuquerque Service Center in October 2004. During the
         period covered by our inspection, FYs 2002, 2003, and 2004, OAK
         managed the input of clearance data for Livermore employees in DOE’s
         personnel security database. OAK does not currently manage the input
         of any clearance data.




Page 3                                  Observations and Conclusions
Details of Findings

SECURITY              We found that 373 of the 1,261 cleared employees who terminated
BADGES                from the Laboratory during FYs 2002, 2003, and 2004 did not
                      return their security badges on or before the last day of
                      employment as required by DOE policy. Specifically, DOE
                      Manual 473.1-1, “Physical Protection Program Manual,” stated
                      that badges issued must be recovered at the final security
                      checkpoint or earlier when an individual no longer has a valid
                      requirement for access to a DOE facility. We determined that 207
                      badges were returned from 1 to 13 days after the employees’ last
                      day of work and 166 badges were returned from 14 to 90 days after
                      the employees’ last day. Security badges not returned to the
                      Livermore Badge Office by the last day of employment could later
                      be used to gain unauthorized access to DOE facilities. However,
                      there was no practical way to readily determine if such access had,
                      in fact, occurred.

                      We were told by NNSA that, to mitigate unauthorized access to its
                      secure facilities, the badges become electronically disabled within
                      the Livermore security system and Personnel Security sends formal
                      notices to the individuals advising them to return the badges.
                      Further, when warranted, the Personnel Security Division notifies
                      the Protective Force Division to post badge retrieval notices at all
                      manned entry points into Livermore. We note, however, that these
                      actions do not preclude the badge from being used to gain access at
                      other DOE facilities.

CATEGORIZATION        We also found that Livermore improperly categorized 11 of the
OF UNRECOVERED        1,261 terminating employees’ security badges as accounted for
BADGES                when, in fact, they should have been categorized as lost or stolen.
                      Specifically, DOE Manual 473.1-1 stated that, “If a terminated
                      employee’s DOE security badge is not recovered, the badge must
                      be treated as a lost or stolen badge . . . .” However, Livermore
                      Badge Office officials informed us that they had established a
                      process where in some instances unrecovered badges were
                      categorized as accounted for rather than lost or stolen.

                      During our inspection, we identified that some security badges
                      were classified in Livermore’s Integrated Security Information
                      System (ISIS) as “accounted for” in spite of information provided
                      to us that showed the badges were not recovered and their
                      disposition was not definitively known. For example, in one case,
                      an employee explained to the Badge Office that she had lost her
                      badge, but that she knew its approximate location. The badge was
                      never recovered, but it was classified in ISIS by Badge Office
                      personnel as “accounted for.”



Page 4                                                               Details of Findings
DOE SECURITY   We found that 43 of a judgmental sample of 140 cleared
CLEARANCE      terminating employees did not have their security clearances
DATABASE       terminated in DOE’s official personnel security clearance database,
               the Central Personnel Clearance Index (CPCI), in a timely manner.
               DOE Manual 472.1-1B, “Personnel Security Program Manual,”
               stated that, “Within 2 working days of receipt of a DOE F 5631.29
               [Security Termination Statement] or written notice [of termination],
               the cognizant DOE security office must note in the individual’s PSF
               [Personnel Security File] the date the access authorization was
               actually terminated and must enter the appropriate information to the
               CPCI.” We determined that Livermore Personnel Security provides
               written notice to the cognizant DOE security office through a long-
               established practice of sending the DOE personnel security office a
               daily list of names of personnel with security clearances who had
               been terminated in the Livermore personnel security database.

               For our judgmental sample of 140 cleared employees, 41 retained
               their clearances in the CPCI anywhere from 10 to 177 days after their
               clearances were terminated in Livermore’s database. Of particular
               significance, we determined that the clearances of an additional two
               employees remained active in the CPCI for nearly a year after their
               departure despite specific termination notification to NNSA personnel
               security staff by Livermore as part of a database reconciliation effort
               in October 2004. The clearances were not terminated until the Office
               of Inspector General notified Livermore officials of the problem in
               March 2005.

LIVERMORE      We found that 36 of the 140 cleared employees in the same sample
DATABASE       as above were not terminated in Livermore’s security clearance
               database in a timely manner. Livermore Personnel Security’s
               guidelines require the termination of an employee’s security
               clearance in the Livermore database within two business days of
               employment termination. We determined that the access
               authorizations for 36 of the sampled employees remained active
               anywhere from 10 to 60 days after the employees’ separation
               dates.

               We determined that Livermore Personnel Security officials were
               often not made aware in a timely manner that employees were no
               longer working for the Laboratory. A lack of communication from
               Livermore Human Resources, Staff Relations, and individual
               program offices prevented Livermore Personnel Security officials
               from otherwise receiving timely information about separating
               employees. In fact, several of the Laboratory program
               representatives we interviewed were unaware of Personnel
               Security’s guidelines that require the termination of security



Page 5                                                        Details of Findings
                 clearances within two business days. A representative from one
                 Laboratory program indicated that if she had known about the two-
                 day requirement, she would have notified Personnel Security of
                 employee separations sooner.

SECURITY         We found that 18 of the same sample of 140 cleared employees did
TERMINATION      not complete the required Security Termination Statement (STS),
STATEMENTS       and, thus, there was no assurance the employees had received the
                 required Security Termination Briefing. DOE Order 472.1C,
                 “Personnel Security Activities,” stated that:

                        “The purpose of the DOE F 5631.29 [STS] is to
                        ensure that the individual is aware of his/her
                        continuing responsibilities to protect classified
                        matter after termination of an access authorization.”

                 As part of the Security Termination Briefing process, an employee
                 must sign an STS. However, 18 of the 140 cleared employees
                 included in our sample did not meet this requirement. If an STS has
                 not been signed, there is no assurance the employee received a
                 Security Termination Briefing.

OUT-PROCESSING   We found that 45 of the 140 cleared employees sampled did not
PROCEDURES       follow Livermore’s out-processing procedures. At Livermore,
                 managers were responsible for ensuring that subordinate employees
                 completed the required out-processing checklist. Prior to the last
                 day of work, departing employees were required to take the
                 checklist to multiple departments, including the Livermore Security
                 and Badge Offices. As part of the out-processing procedure,
                 cleared employees were required to return all classified material,
                 attend a security briefing, and return their security badges.
                 Signatures from Security and Badge Office officials on the out-
                 processing checklist ensured that an employee had completed these
                 requirements.

                 However, 45 cleared employees in our sample did not execute an
                 out-processing checklist. Since the checklist was used to notify
                 various Laboratory departments of employee departures, failure to
                 complete the checklist could delay timely notification to these
                 offices and result in problems with badge collection, clearance
                 termination, and return of classified materials. Specific to this
                 concern, NNSA advised us that in FYs 2002 through 2004
                 Livermore successfully completed classified removable electronic
                 media (CREM) inventories that resulted in all accountable CREM
                 and other accountable material being located.




Page 6                                                          Details of Findings
OTHER PERSONNEL   We found that Livermore did not have sufficient internal controls to
                  adequately monitor the current employment status of over 700
                  subcontractor employees and affiliated personnel to ensure that
                  security clearances were terminated and security badges were retrieved
                  in a timely manner. Subcontractor employees and affiliated personnel,
                  which include contracted special laborers, consultants, participating
                  guests, University of California affiliates, or multi-location affiliates,
                  are not considered to be regular Laboratory employees. These
                  individuals are given badges and are granted security clearances
                  because of their association with the Laboratory and its various
                  classified operations.

                  DOE Order 472.1C stated that the contractor must request the
                  cognizant DOE personnel security office to terminate an
                  employee’s access authorization and must provide a Security
                  Termination Statement completed by the employee whenever any
                  of the following occur:

                            (1) Employment by the contractor is terminated;

                            (2) An access authorization is no longer required;

                            (3) Access to classified matter or Special
                            Nuclear Material is no longer required due to
                            transfer to a position not requiring such access;

                            (4) The individual is on a leave of absence or on
                            extended leave and will not require access for 90
                            consecutive calendar days. Upon request, this
                            interval may be adjusted at the discretion of the
                            cognizant DOE office; or

                            (5) The individual leaves for foreign travel,
                            employment, assignment, education, or residence
                            of more than three months duration, not
                            involving official United States Government
                            business.

                  We determined that Livermore’s internal controls were not
                  sufficient to ensure timely identification that any of the above
                  events had occurred for subcontractor employees and affiliated
                  personnel, which could impact its ability to comply with the
                  requirements in the Manual pertaining to terminating personnel
                  security clearances and processing Security Termination
                  Statements. Existing Livermore internal controls included
                  (1) badges for affiliated personnel having expiration dates not to



Page 7                                                            Details of Findings
                  exceed one year and (2) Livermore Personnel Security auditing
                  subcontractor Facility Security Officers bi-annually against
                  termination requirements, guest statuses being reviewed annually,
                  and the Supplement Labor Project Manager providing daily, if
                  necessary, termination notices to Livermore Personnel Security.
                  We noted that these controls did not provide routine oversight of
                  the employment status of subcontractor employees and affiliated
                  personnel.

                  Further, through interviews with Livermore officials we learned
                  that many affiliated personnel were not closely supervised, they
                  had variable schedules, and some did not return to the Laboratory
                  for extended periods of time. We were told by Personnel Security
                  officials that they must rely on the integrity of the Program Hosts
                  to notify them of changes in the status of cleared affiliated
                  personnel and when these individuals have terminated their
                  assignments. Livermore security personnel could not confirm for
                  us that all of these individuals were at the Laboratory consistently
                  enough to retain a badge or to maintain a security clearance, nor
                  was there a means for us to readily ascertain their current status.

PERFORMANCE       We found that Livermore did not have performance metrics to
MEASURES          measure significant aspects of personnel security activities,
                  including timely termination of security clearances and retrieval of
                  security badges. We believe such metrics are important to measure
                  whether an appropriate level of security is being maintained.

RECOMMENDATIONS   We recommend the Manager, Livermore Site Office ensures that:

                  1. Livermore establishes internal controls for the timely:
                     (a) recovery of badges of terminating employees; (b) completion
                     of Security Termination Briefings; (c) completion of Security
                     Termination Statements; and, (d) notification to DOE when
                     security clearances should be terminated.

                  2. Livermore officials improve internal controls such that all
                     security clearances are terminated in the official Livermore
                     database in a timely manner.

                  3. Livermore establishes controls to improve compliance with
                     out-processing procedures for terminating employees.

                  4. Livermore implements a process to monitor the employment
                     status of subcontractor employees and affiliated personnel and
                     provides timely notification to Personnel Security officials
                     about employment status changes.



Page 8                                                           Recommendations
             5. The Livermore Badge Office discontinues the practice of
                classifying lost or stolen badges as “accounted for.”

             6. Livermore implements performance measures for significant
                aspects of personnel security activities, including termination
                of security clearances and retrieval of badges pursuant to DOE
                requirements.

MANAGEMENT   In comments on our draft report, management concurred with our
COMMENTS     recommendations and identified corresponding corrective actions.
             Management also provided comments regarding specific phrasing
             in the report. Management’s comments are included in their
             entirety in Appendix C.

INSPECTOR    Management’s comments were responsive to our findings and
COMMENTS     recommendations. Regarding management’s comments
             concerning specific phrasing in the report, we evaluated the
             comments and made changes, as appropriate.




Page 9                               Management and Inspector Comments
Appendix A

SCOPE AND            We performed the majority of our inspection fieldwork between
METHODOLOGY          February and March 2005. We interviewed Livermore security
                     and personnel officials regarding employee and affiliated
                     personnel termination procedures. We reviewed DOE and
                     Livermore policies, procedures, and records involving security
                     clearance terminations and security badges. Documents used in
                     this report included:

                     •   DOE Manual 470.4-2, “Physical Protection.”

                     •   DOE Manual 470.4-5, “Personnel Security.”

                     •   DOE Order 472.1C, “Personnel Security Activities.”

                     •   DOE Manual 472.1-1B, “Personnel Security Program
                         Manual.”

                     •   DOE Manual 473.1-1, “Physical Protection Program Manual.”

                     Also, pursuant to the “Government Performance and Results Act
                     of 1993,” we reviewed Livermore’s performance measurement
                     processes as they relate to personnel security.

                     This inspection was conducted in accordance with the “Quality
                     Standards for Inspections” issued by the President’s Council on
                     Integrity and Efficiency.




______________________________________________________________________

Page 10                                                      Scope and Methodology
Appendix B

RELATED REPORTS     The following reports involve Office of Inspector General work
                    similar to this inspection:

                     •   “Personnel Security Clearances and Badge Access Controls at
                         Department Headquarters” (DOE/IG-0548, March 2002);

                     •   “Personnel Security Clearances and Badge Access Controls at
                         Selected Field Locations” (DOE/IG-0582, January 2003);

                     •   “Security and Other Issues Related to Out-Processing of
                         Employees at Los Alamos National Laboratory”
                         (DOE/IG-0677, February 2005); and,

                     •   “Badge Retrieval and Security Clearance Terminations at
                         Sandia National Laboratory-New Mexico” (draft report).




______________________________________________________________________

Page 11                                                              Related Reports
Appendix C
______________________________________________________________________




______________________________________________________________________

Page 12                                           Management Comments
Appendix C (continued)
______________________________________________________________________




______________________________________________________________________

Page 13                                           Management Comments
Appendix C (continued)




Page 14                  Management Comments
Appendix C (continued)




Page 15                  Management Comments
Appendix C (continued)




Page 16                  Management Comments
                                                                    IG Report No. DOE/IG-0716

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Mr. Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
